COMMODITY FUTURES TRADING COMMISSION

   SEMIANNUAL REPORT
         OF THE




   OFFICE OF THE
INSPECTOR GENERAL




FOR THE PERIOD ENDING SEPTEMBER 30, 2004
                            u.s. COMMODITY FUTURES TRADING COMMISSION
                                                 Three Lafayette Centr~
                                      1155 21st Street, NW, Washington, DC 20581
                                              Telephone: (202) 418-5110
                                               Facsimile: (202) 418-5522
                                                          www.cftc.gov


   Office of the                                October 29, 2004
Inspector General




      TO:            Sharon Brown-Hruska
                     Acting Chairman

      FROM:          A. Roy Lavik
                     Inspector General
                                      0. (( ~
      SUBJECT:       Semiannual Report of the Office of the Inspector General

             Attached is the Semiannual Report of the Office of the Inspector General for the period
      from April 1, 2004 through September 30, 2004. This report is submitted to you in accordance
      with the requirements of Section 5 of the Inspector General Act of 1978, as amended.

              I appreciate your support of this office.

      Attachment
             OFFICE OF THE INSPECTOR GENERAL
          COMMODITY FUTURES TRADING COMMISSION

                              SEMIANNUAL REPORT
                              FOR THE PERIOD FROM
                    April 1, 2004 THROUGH September 30, 2004



                             TABLE OF CONTENTS

SUMMARY OF OIG ACTIVITIES [including a description of significant problems, abuses,
    and deficiencies and a description of OIG recommendations for corrective action
    (Mandated by Section 5(a)(1) and (2) of the Act)]                                       1
    AUDITS                                                                                  1
    IN'VESTIGATIONS                                                                         2
    LEGISLATIVE AND REGULATORY REVIEWS                                                      2

OIG RESPONSffiILITIES                                                                       3

OIG RESOURCES                                                                               4

CFTC PROGRAMS AND OPERATIONS                                                                4

COMPLETED WORK.                                                                             4
    AUDITS [including a list of each audit report issued and a summary of each particularly
    significant report (Mandated by Section 5(a)(6) and (7) of the Act)]                   .4
    IN'VESTIGATIONS                                                                         7
    LEGISLATIVE AND REGULATORY REVIEWS                                                      8

AUDIT REPORTS OVER SIX MONTHS OLD                                                           9

       CORRECTIVE ACTION NOT COMPLETED [including an identification of each
       significant recommendation described in previous semiannual reports on which
       corrective action has not been completed (Mandated by Section 5(a)(3) of the Act)]   9
       CORRECTIVE ACTION COMPLETED                                                          9
       MANAGEMENT DECISION NOT MADE [including a summary of each audit
       report issued before the commencement of the reporting period for which no management
       decision has been made by the end of the reporting period (including
       the date and title of each such report), an explanation of the reasons such a
       management decision has not been made, and statement concerning the desired timetable
       for achieving a management decision on each such report (Mandated by Section 5(a)(10)
       of the Act)]                                                                         9

SUMMARY OF MATTERS REFERRED TO PROSECUTNE AUTHORITIES and
    the prosecutions and convictions which have resulted (Mandated by
    Section 5(a)(4) of the Act)                                                           10

SUMMARY OF EACH REPORT MADE TO THE AGENCY HEAD
    under Section 6(b)(2) concerning information or assistance unreasonably
    refused or not provided (Mandated by Section 5(a)(5) of the Act)                      10

REVISED MANAGEMENT DECISIONS [including description and explanation of
     the reasons for any significant revised management decision made during the
     reporting period (Mandated by Section 5(a)(II) of the Act)]                          10

INSPECTOR GENERAL DISAGREEMENT [including information concerning any
     significant management decision with which the Inspector General is in
     disagreement (Mandated by Section 5(a)(12) of the Act)]                              10

ClJRRENT AUDITS                                                                           10

GAO LIAISON                                                                               14

STRATEGIC PLAN                                                                            15

CONTACTING THE OFFICE OF THE INSPECTOR GENERAL                                            20

TABLE 1 -- REPORTS ISSUED WITH QUESTIONED COSTS
     (Mandated by Section 5(a)(8) of the Act)                                             21

TABLE 2 -- REPORTS ISSUED WITH RECOMMENDATIONS THAT FUNDS BE PUT
     TO BETTER USE (Mandated by Section 5(a)(9) of the Act)                               22




                                             11
                   INDEX OF IG ACT REPORTING
                        REQUIREMENTS

Section 5(a)(I)                                 1

Section 5(a)(2)                                 1

Section 5(a)(3)                                 9

Section 5(a)(4)                                10

Section 5(a)(5)                                10

Section 5(a)(6)                                 4

Section 5(a)(7)                                 4

Section 5(a)(8)                                21

Section 5(a)(9)                                22

Section 5(a)(10)                                9

Section 5(a)(11)                               10

Section 5(a)(12)                               10




                               111
                       SUMMARY OF OIG ACTIVITIES


AUDITS

        The primary objectives of the Office ofthe Inspector General (DIG) ofthe Commodity
Futures Trading Commission (Commission, CFTC) are to help promote long-term efficiency and
effectiveness in the administration and operation of the Commission and to protect against fraud,
waste, and abuse. This reporting period's DIG audit activities, which are listed below, reflect
these objectives.

Current Audits

        The following are the audits being conducted during the current reporting period and
continuing into the next reporting period. (For additional details, see the section on current
audits beginning on page 10.)

       Review ofAgency Compliance with GPRA. The Government Performance and Results
       Act of 1993 (GPRA) requires federal agencies to develop strategic plans, prepare annual
       plans setting performance goals, and report annually on actual performance compared to
       goals. The first report was prepared in March 2000. The objective of this review is to
       determine how effectively the Commission is complying with GPRA's terms. This will
       include an examination of the performance measures devised by the Commission and the
       systems used for gathering the data to report on those performance measures. (For
       additional details, see page 11.)

       Audit of CFTC Financial Statements. In FY 2002, Congress passed the Accountability of
       Tax Dollars Act. The Act requires the CFTC, along with numerous other Federal
       entities, to have its financial statements audited annually. To this end, the objective of
       this audit is to acquire a contractor who will provide the audit effort required to enable
       the contractor to render an opinion on the agency's financial statements for fiscal year
       2004 in accordance with generally accepted auditing standards, Government Auditing
       Standards, and OMB Bulletin 01-02. (For additional details, see page 12.)

Completed Audits

         The following audits have been completed during this reporting period. (For additional
details, see the section on completed audits beginning on page 4.)

       Follow-up Audit of Civil Monetary Penalty Collections. The Debt Collection Act of
       1982 and the Debt Collection Improvement Act of 1996 (DCIA) direct Federal agencies
       to collect debts owed to the United States. The DIG completed an audit of the Civil


                                                 1
       Monetary Penalties Collection Process in April 2001 which examined the outstanding
       debts owed to the Commission, reviewed the procedures for collecting outstanding debts,
       and assessed compliance with the DClA. Improvements in the implementation of the
       debt collection process were recommended. The objectives ofthis audit are to determine
       if the suggested changes were implemented and if they have had the desired effect. (For
       additional details, see page 5.)

       Audit of Emergency Contact Telephone Numbers. The Commission maintains
       emergency telephone contact numbers for all key CFTC employees and for key
       employees at regulated exchanges. The list of these emergency contact numbers should
       be currently maintained and in the possession of all key employees for use in the event of
       an emergency. This audit reviewed the currency of the list of emergency contact
       numbers and the possession of these numbers by all key employees. (For additional
       details, see page 5.)

       Audit of Compliance with the Federal Managers' Financial Integrity Act. In support of
       OMB Circular A-123 (Revised), the Inspector General evaluates, provides technical
       assistance, and advises the agency head as to whether the agency's review and evaluation
       process was conducted in accordance with the circular's requirements. (For additional
       details, see page 6.)

       Evaluation of the CFTC Infonnation Security Program and Practices, FISMA. The
       Federal Information Security Management Act (FISMA) requires the Inspector General
       or his designee to perform annual independent evaluations ofthe infonnation security
       program and practices of the agency. (For additional details, see page 6.)


INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, abuse of authority, or gross waste of funds, or a substantial and specific danger
to the public health and safety.

        No investigations were pending as of the beginning of the reporting period. The OIG
opened two investigations during the reporting period and completed two investigations. (See the
section on investigations beginning on page 7.)

LEGISLATIVE AND REGULATORY REVIEWS

        The OIG reviews proposed and final CFTC regulations, legislation, and selected
exchange rules using the following basic criteria: whether the ~gency: (1) has identified
specifically the problem(s) to be addressed by the proposal; (2) has defined through case study or
data analysis a clear link between the proposed solution and the identified problem(s); (3) has
specified clearly the means to effectively and efficiently enforce the proposal; (4) has assessed


                                                2
the likely efficiency and effectiveness of alternative solutions; (5) can reasonably document that
the proposal will yield positive net benefits over the long tenn; and (6) has met the requirements
of the Regulatory Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its infonnation collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

Legislative Activities

      The Inspector General continues to be heavily involved in legislative activities.
Congressional staff were briefed about the various IG issues.



                              OIG RESPONSIBILITIES


       The Office of the Inspector General in the Commodity Futures Trading Commission was
created in accordance with the Inspector General Act of 1978 (P.L. 95-452), as amended by the
Inspector General Act Amendments of 1988 (p.L. 100-504). The OIG was established to create
an independent unit to:

       •   Promote economy, efficiency, and effectiveness in the administration of CFTC
           programs and operations and detect and prevent fraud, waste, and abuse in such
           programs and operations;

       •   Conduct and supervise audits and, where necessary, investigations relating to the
           administration of CFTC programs and operations;

       •   Review existing and proposed legislation, regulations, and exchange rules and make
           recommendations concerning their impact on the economy and efficiency of CFTC
           programs and operations or the prevention and detection of fraud and abuse; and

       •   Keep the Chainnan and Congress fully informed about any problems or deficiencies
           in the administration of CFTC programs and operations and provide
           recommendations for correction of these problems or deficiencies.

       Given that the CFTC does not have extensive contracts or grant making authority, the
GIG's efforts have been focused on the review of legislative and regulatory proposals and the
monitoring of internal CFTC operations.




                                                 3
                                      OIG RESOURCES

        The OIG consists of the Inspector General, two professional staffmembers, and a
secretary. All positions have been filled since January 2,2000. The present Inspector General
assumed his position on October 7, 1990.

        The OIG, on December 4, 1989, signed a Memorandum of Understanding with the Office
of the General Counsel (OGC). This Memorandum details the procedures that are used to
provide the OIG with OGC legal services. An OGC staff member has been assigned to provide
such services to the OIG on an as-needed basis.



                  CFTC PROGRAMS AND OPERATIONS

       Congress created the Commodity Futures Trading Commission in 1974 as an
independent agency with the mandate to regulate commodity futures and options markets in the
United States. The Commission's mandate was renewed and/or expanded in 1978, 1982, 1986,
1992, and 1995. In December 2000, the Commission was reauthorized by Congress and the
President through fiscal year (FY) 2005 with the passage of the Commodity Futures
Modernization Act of2000 (CFMA).

         The CFMA transfonned the Commission from a front-line regulatory agency to an
oversight regulator. Although the Commission's approach to regulation has changed, the
CFTC's mission has not. The CFTC continues to be responsible for fostering the economic
utility of futures markets by encouraging their competitiveness and efficiency, ensuring their
integrity, and protecting market participants against manipulation, abusive trade practices, and
fraud. Through effective oversight regulation, the CFTC enables the commodity futures markets
better to serve their vital function in the nation's economy -- providing a mechanism for price
discovery and a means of offsetting price risks.



                                COMPLETED WORK

AUDITS

       The OIG is required to conduct, supervise and coordinate audits ofCFfC programs and
operations and to ensure that the audits are conducted in accordance with generally accepted
government auditing standards. The OIG is also required to recommend changes to existing and
proposed CFTC programs and operations to promote economy, efficiency, and effectiveness and
to prevent and detect fraud and abuse.



                                               4
          The purpose of these audits is to ensure that:

          •   Funds have been expended in a manner consistent with related laws, regulations, and
              policies;

          •   Resources have been managed effectively and efficiently;

          •   Stipulated program objectives have been achieved; and

          •   Resources have been safeguarded.

          The following audit reports have been issued during the reporting period.

1.        Follow-up Audit of Civil Monetary Penalty Collections

Objective.

        The Debt Collection Act of 1982 and the Debt Collection Improvement Act of 1996
(DClA) direct Federal agencies to collect debts owed to the United States. The OIG completed
an audit of the Civil Monetary Penalties Collection Process in April 2001 which examined the
outstanding debts owed to the Commission, reviewed the procedures for collecting outstanding
debts, and assessed compliance with the DClA. Improvements in the implementation ofthe debt
collection process were recommended. The objectives of this audit are to determine if the
suggested changes were implemented and if they have had the desired effect.

Status.

         A final audit report was issued on September 23, 2004. The audit disclosed that there
were twenty-one cases totaling $12,796,047 with uncollected civil monetary penalties that were
180 days or older. Twelve of the cases totaling $6,265,000 were timely sent to the Financial
Management Service at Treasury for collection. Two of the cases totaling $1,039,174 were
timely sent to the Department of Justice for authorization to terminate collection activities; and
seven cases amounting to $5,491,873 were incorrectly identified in the Division of
Enforcement's records. As a result of this audit, the OIG recommends that the Director, Division
of Enforcement direct the DOE employee in charge of collections to continuously update DOE's
automated and manual records systems to reflect the current status of all cases and to comply
strictly with the deadlines imposed by the Debt Collection and Improvement Act of 1996.

2.        Audit of Emergency Contact Telephone Numbers.

Objective.

      The Commission maintains emergency telephone contact numbers for all key CFTC
employees and for key employees at regulated exchanges. The list of these emergency contact
numbers should be currentLy maintained and in the possession of all key employees for use in the




                                                    5
event of an emergency. This audit reviewed the currency of the list of emergency contact
numbers and the possession of these numbers by all key employees.

Status.

        This audit found that the agency does not have a current, comprehensive listing of
emergency contact numbers for key CFTC employees and for key employees at regulated
exchanges. The agency is preparing a new document, which will include this infonnation as
well as additional infonnation for key employees to use in the event of a market disruption.
Senior managers in the affected divisions have committed to producing a new comprehensive
document prior to the end of the third quarter of 2004. Once this document is available, the OIG
will conduct random tests to ascertain the accuracy of this infonnation.

3.        Audit of Compliance with the Federal Managers' Financial Integrity Act

Objective.

       In support of OMB Circular A-123 (Revised), the Inspector General evaluates, provides
technical assistance, and advises the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.

Status.

         For the third year, the Commission has been working on a new approach to satisfying the
requirement of Circular A-123 (Revised). The OIG reviewed draft and final internal control
materials produced by the Commission and provided comments. The OIG reported the results of
its review of the submissions to the Chairman in its annual assurance letters. The OIG offered its
services to the Commission as advisor and consultant on conducting and reporting on internal
control reviews.

4.        Evaluation of the CYrC Information Security Program and Practices, FISMA

Objectives.

        The Federal Information Security Management Act requires the Inspector General or his
designee to perform annual independent evaluations of the information security program and
practices of the agency.

Status.

       To provide a comprehensive review of the Commission's security program, OIRM and
DIG jointly engaged a contractor. Using the information supplied by the contractor and the
program managers, the Inspector General responded to the areas raised by the OMB Guidance.
The evaluation covered the following systems: the General Support System, Trade Practice
Investigations System, Payroll and Personnel Systems, ISS Market Surveillance System, 1FR
Company Financial Reporting System and the Financial Management System. The Financial



                                                6
Management System consists of three components entitled Financial Management System,
Travel Manager System, and Electronic Certification System.

        In addition to the independent evaluation, the Inspector General produced a summary
characterizing the results of the independent evaluation of the agency's infonnation security
program and practices. Results of this effort were transmitted to the CFTC's Chief Infonnation
Officer (CIO) on September 15,2004 for combination with the CIO's assessment and inclusion
in the Chainnan's report to O:MB.


INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, abuse of authority, or gross waste of funds, or a substantial and specific danger
to the public health and safety.

       No investigations were pending as of the beginning of the reporting period. The OIG
opened two investigations during the reporting period and completed the two investigations
during the reporting period.

       In August 2004, the OIG received information from an employee that impending action
by agency staff as directed by the employee's supervisor would directly endanger the lives of
undercover agents involved in a sensitive investigation. The OIG interviewed relevant parties
and concluded that the danger asserted did not exist. As a result, this investigation was closed.

        In April 2004, the OIG learned that a convicted felon was hired as a Grade 14 supervisor
at the CFTC without awareness of his prior criminal record. The OIG's concern was that,
although this relevant information regarding his criminal convictions was readily available and in
plain sight in the employee's Official Personnel Folder stored with other files safeguarded in the
Office ofHuman Resources (OHR), no one in ORR noticed the information. This oversight was
compounded by OHR's policy of not notifying the selecting official of the availability ofthe
Official Personnel Folder. This was particularly unfortunate since the individual had been
"outed" by a senior Senator. These facts led us to question the system currently in place for
hiring, processing critical information on new employees, and distributing adequate information
to the selecting officials so that they can make a decision that will benefit the agency. The
nonnotification of the availability of the Official Personnel Folder was particularly egregious.

        As a result of this investigation, the OIG concluded that the present system in OHR was
faulty and must be repaired. Specifically, selecting officials must be given unconditional and
timely access to the Official Personnel Folder ofnew employees so that they can evaluate its
content to determine if their hiring decision was based on complete and accurate information.
To achieve this purpose, the Office of the Inspector General recommended that the Director,
Office of Human Resources personally review the Official Personnel Folder of each recently
hired employee who is grade CT- 14 and above to determine if the Official Personnel Folder


                                                 7
contains pertinent derogatory information or if the contents of the Official Personnel Folder are
inconsistent with the claims in the employee's application documents; inform the selecting
official ofthe results of that review; establish a procedure for notifying the selecting official
when the Official Personnel Folder relating to a recently hired employee is received by CFTC,
informing the selecting official ofhis right to review the Official Personnel Folder, and asking if
the selecting official would like to review the Official Personnel Folder; and, upon receipt of a
request from the selecting official to review the Official Personnel Folder, deliver the original
Official Personnel Folder to the selecting official's office for review by that official and return to
the Office of Human Resources within three business days.

        We found that the pattern of secrecy maintained by the Director, OHR which kept
important information not only from the selecting official but also from her own Security Officer
is the base cause of the hiring difficulties. The Office ofthe Inspector General recommended
that the Chairman take disciplinary action against the Director for her culpability in creating and
maintaining an atmosphere of excessive secrecy which kept information from officials who
needed it to perform their functions.

       The then Chainnan decided not to take disciplinary action against the Director. He did,
however, direct that OHR notify the hiring official of the availability of the Official Personnel
Folder for viewing. He did not, though, require that the Official Personnel Folder be made
available at the hiring offical's office, but, rather required the viewing be done at OHR.

        The Executive Director has established a pilot project to determine the incidence of
misrepresentations of facts on the resumes of new hires. The Executive Director has
asked Human Resources staff to review Official Personnel Folders for all supervisors and all
CT-14 and above employees hired over the next six months to identify any discrepancies
between the information on the prospective employee's application and the information in the
Official Personnel Folder. The pilot project will also keep track of how many hiring officials
take advantage of an offer to come to the Office of Human Resources Management and review
the new employee's Official Personnel Folder under the supervision ofOHR.

        While the OIG disagrees that the actions taken are sufficient to resolve the problems
identified, we will evaluate the results of the pilot project at its conclusion and make further
recommendations at that time.


LEGISLATIVE AND REGULATORY REVIEWS

        As specified in Section 4(a) (2) ofthe Inspector General Act of 1978, the OIG reviews
the impact of existing and proposed legislation and regulations on CFTC programs and
operations and makes recommendations regarding more effective or efficient alternatives or
protections against fraud and abuse. The OIG also reviews selected exchange rule proposals and
changes.




                                                   8
      The GIG has notified the responsible Divisions as to any concerns with draft and final
documents relating to legislation, rules or investigations. Fonnal comments were not filed with
the Commission.

RULE REVIEWS INITIATED IN PREVIOUS REPORTING PERIODS

        There were no rule reviews initiated in previous reporting periods which were continued
into this reporting period.

RULE REVIEWS INITIATED THIS REPORTING PERIOD

        The GIG has reviewed the numerous rules required by the CFMA. The CFMA altered
the relationship ofthe Commission to the futures industry in many regards and the rules sought
to reflect this change.


Legislative Activities

      The Inspector General continues to be involved in legislative activities and contact has
been made with congressional staff on various IG issues.



              AUDIT REPORTS OVER SIX MONTHS OLD


CORRECTIVE ACTION NOT COMPLETED
       There were no instances of audit reports over six months old where corrective action had
not been completed.

CORRECTIVE ACTION COMPLETED
        There were no instances of reports issued before the commencement of the reporting
period for which corrective action had been completed by the end of the reporting period.

MANAGEMENT DECISION NOT MADE

        There were no instances ofreports issued before the commencement of the reporting
period for which a management decision had not been made by the end of the reporting period.




                                                9
                   SUMMARY OF MATTERS REFERRED TO
                      PROSECUTIVE AUTHORITIES

           No matters were referred to prosecutive authorities during the reporting period

                   SUMMARY OF EACH REPORT MADE TO
                         THE AGENCY HEAD

        No reports were made to the agency head under section 6(b)(2) concerning information
or assistance unreasonably refused or not provided.

                      REVISED MANAGEMENT DECISIONS

           No management decisions were revised during the reporting period.



                    INSPECTOR GENERAL DISAGREEMENT

      The Inspector General has a disagreement with the management decisions on OIG
recommendations contained in the investigation of the hiring process detailed on page 7.



                                     CURRENT AUDITS

           The audit agenda and priorities for the GIG are determined based on the following
factors:

           •   Statutory and regulatory requirements;

           •   Adequacy of internal control systems as indicated by vulnerability assessments and
               internal control reviews recommended by OMB Circular A-123;

           •   Changes in the program conditions or particular vulnerability of the organization,
               program, activity, or function to problems or deficiencies;

           •   Current and potential dollar magnitude and likely benefits of a review on the
               efficiency or effectiveness of CFTC programs and operations;


                                                   10
          •   Management priorities and improvements that may be possible;

          •   Results of audits of CFTC programs and operations by other Federal agencies; and

          •   Availability of audit resources and the potential opportunity costs to the agency.

       The audit agenda and summary ofprogress for each audit, which has not yet been
completed, is summarized below. New agenda items periodically will be added, as appropriate,
along with a description of the audit objective for each.

1.        Review of Agency Compliance with GPRA

Objective.

        The Government Performance and Results Act of 1993 requires federal agencies to
develop strategic plans, prepare annual plans setting performance goals, and report annually on
actual performance compared to goals. The first report was prepared in March 2000. The
objective of this review is to determine how effectively the Commission is complying with
GPRA's terms. This will include an examination of the performance measures devised by the
Commission and the systems used for gathering the data to report on those performance
measures.

Status.

        In response to Congressional interest, the OIG consulted with and advised the
Commission's operating divisions concerning GPRA requirements. The Office of the Inspector
General reviewed the Commission's FY 2001, FY 2002, FY 2003 and FY 2004 Annual
Performance Plan before each was submitted to Congress. Subsequently, the OIG selectively
reviewed the FY 1999, FY 2000, FY 2001, FY 2002 and FY 2003 Annual Performance Reports
after they were submitted to Congress. The OIG concluded that the agency had made
improvements in defining its goals and identifying measures for reaching its stated goals.

       The CFMA, which was enacted in fiscal year 2001, fundamentally changed the
regulatory structure for the commodity futures markets. The Commission adopted new rules and
procedures consistent with the regulatory refonns presented in that Act. This wholesale change
in approach challenged each operating division to redefine its service goals under GRPA. The
agency implemented a reorganization that allows the Commission to more effectively respond to
the new Act.

        The OIG participated in a number of discussions on how to best reflect the agency's new
regulatory paradigm in structuring future goals and measures under GPRA. In conjunction with
other federal agencies' Inspectors General, the OIG is participating in the development ofbest
practices for measuring compliance~with the requirements of GPRA. The OIG is reviewing the
goals and objectives prepared by senior managers for adherence to the requirements of GPRA.




                                                   11
After this review, the GIG will verify and validate a subset of the data submitted in the GPRA
report.

 2.      Audit of eYre Financial Statements

. Objective.

         In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
 the CFTC, along with numerous other Federal entities, to have its financial statements audited
 annually. To this end, the objective of this audit is to acquire a contractor who will provide the
 audit effort required to enable the contractor to render an opinion on the agency's financial
 statements for fiscal year 2004 in accordance with generally accepted auditing standards,
 Government Auditing Standards, and OMB Bulletin 01-02.

 The specific objectives of this audit are to determine whether:

         (1) The financial statements present fairly the financial position of the Commodity
         Futures Trading Commission in accordance with generally accepted accounting
         principles (GAAP) as promulgated by the Federal Accounting Standards Advisory Board
         (FASAB). The six financial statements, along with all corresponding notes to be audited
         include: (a) Balance Sheet; (b) Statement of Net Cost; (c) Statement of Changes in Net
         Position; (d) Statement of Budgetary Resources; (e) Statement of Financing; and (t)
         Statement of Custodial Activity.

         (2) Management's assertions about the effectiveness of its internal controls for achieving
         internal control objectives described in AU Section 319 and the Federal Managers
         Financial Integrity Act (FMFIA) are fairly stated in all material respects. The contractor
         shall make this determination in part by obtaining an understanding of the internal control
         policies and procedures and assessing the level of control risk relevant to all significant
         cycles, classes of transactions, and account balances. For those significant control
         policies and procedures that have been properly designed and placed in operation, the
         contractor shall perform sufficient tests to provide reasonable assurance as to whether the
         controls are effective and working as designed.

         The independent public accountant (IPA) will limit its internal control testing to those
         controls necessary to achieve the objectives described in OMB Bulletin 01-02. Further,
         the IFA is not required to test all internal controls relevant to operating objectives as
         broadly defined by the Federal Manager's Financial Integrity Act of 1982, such as those
         controls relevant to achieving efficient operations.

         With respect to internal controls related to performance measures reported in the
         accountability report, the IFA will obtain an understanding of the design of significant
         internal controls relating to the existence and completeness assertions, as required by
         OMB Bulletin 01-02. The procedures are not required to provide assurance on internal
         controls over reported performance measures.




                                                  12
          (3) The agency has complied with selected provisions of laws and regulations identified
          by OMB Bulletin 01-02 or the Inspector General, noncompliance with which could have
          a direct and material effect on the detennmation of financial statement amounts. The IFA
          will limit its tests of compliance to these provisions and need not test compliance with all
          laws and regulations applicable to the CFTC.

          (4) The infonnation in the "Overview of the Reporting Entity" is consistent in content
          and presentation with the infonnation in the principal statements and the related notes
          consistent with Statements on Auditing Standards (SAS) No.8, Other Information in
          Documents Containing Audited Financial Statements.

Status.

         A Request for Quote was issued on July 14, 2003. By the closing date ofAugust 14,
2003, four finns had submitted proposals. An independent public accounting finn was selected
on January 15,2004. Work began on this audit with an opening meeting.on February 18,2004.
Initial interviews of CFTC employees were conducted, and an audit plan was delivered to the
Office of the Inspector General. The plan was reviewed, modified, and implemented.
Preliminary findings have been presented to the OIG and are subject to revisions until the final
report is delivered on November 12,2004.




                                                   13
                                      GAO LIAISON

        The OIG is charged with providing policy direction for, and conducting, supervising, and
coordinating audits and investigations relating to CFTC programs and operations. In addition,
the OIG is required to recommend policies for, and conduct, supervise, and coordinate with other
Federal agencies, state and local governmental agencies, and nongovernmental entities, audits,
investigations, and evaluations regarding the economy, efficiency, and effectiveness of CFTC
programs and operations.

       GAO also conducts audits of CFTC activities, and OIG plans its audits so as not to
duplicate GAO's efforts. Moreover, OIG in its audits activities identifies the goals of each audit
and the methods ofreaching the goals so as to minimize the requirements placed on CFTC
resources.




                                                14
                         STRATEGIC PLAN
                             FOR THE
                 OFFICE OF THE INSPECTOR GENERAL


INTRODUCTION

        The Office of the Inspector General (OIG) in the Commodity Futures Trading
Commission (CFTC) was created in accordance with the Inspector General Act of 1978 (P .L. 95-
452), as amended by the Inspector General Act Amendments of 1988 (P .L. 100-504). The OIG
was established to create an independent unit to:

       •   Promote economy, efficiency, and effectiveness in the administration ofCFTC
           programs and operations and detect and prevent fraud, waste, and abuse in such
           programs and operations;

       •   Conduct and supervise audits and investigations relating to the administration of
           CFTC programs and operations;

       •   Review existing and proposed legislation, regulations, and exchange rules and make
           recommendations concerning their impact on the economy and efficiency of CFTC
           programs and operations or the prevention and detection of fraud and abuse; and

       •   Keep the Chairman and Congress fully informed about any problems or deficiencies
           in the administration of CFTC programs and operations and provide
           recommendations for correction of these problems or deficiencies.

        Accordingly, the OIG has established three programs to carry out its responsibilities:
audit, investigation, and legislative and regulatory review. A summary of those programs
follows.

AUDIT

        The primary objectives of the OIG are to promote long-term efficiency and effectiveness
in the administration and operation of the Commission and to protect against fraud and abuse.

        The key to effectively and efficiently managing the CFTC is infonnation. Top level
managers and decision makers require a steady stream of organized data on the effects of their
policy decisions and resource allocations on the operations ofthe Commission. Once having
made the decision to change resource levels or policy, managers must receive accurate and
timely reports of the operational effects of their decision so they can detennine if the change is in
the direction and of the magnitude predicted. In the absence of such inf6fll1ation, top level
managers cannot adequately perform their jobs.




                                                 15
        A number of obstacles to acquiring and transmitting the desired information to decision
makers may exist in some programs. Principal among them is the Commission's apparent
difficulty in many instances in tracking the progress of a particular action across organizational
lines within the Commission.

        A simple example is the Reparations Program prior to the installation of an OIG
recommended unified, Commission-wide tracking system. Complaints are received and
processed and hearings are held in the Office of Proceedings; appeals of initial decisions in
reparations cases are transmitted to the Office of the General Counsel where proposed
Commission opinions are drafted; and appeals are decided by the Commission with the
paperwork being handled by the Office of the Secretariat. Each office involved in the process
had a separate tracking system without ties to the tracking systems in the offices preceding them
or following them in the process. Each office treated the case as if it were brand new to the
Commission when they received it. As a result, there was no provision for tracking information
across organizational lines. If the Chairman wanted to know how much time was spent on the
average reparations case of a particular description at each stage in the process, that information
was unavailable without an extensive expenditure of manual labor.

        A related problem is the difficulty the Commission has in associating resources devoted
to an activity with the results of that activity. The Commission does a good job of tracking
resources expended. It can determine how much staff time and material at what cost was spent
in a particular activity. Some Commission organizations can even associate costs with particular
projects. What a program manager may have great difficulty doing, however, is telling a
decision maker that, for a specific level or increase in resources, the program manager will
deliver a specific level of increased output. Without this information from all programs
competing for limited resources, decision makers cannot make reasoned resource allocation
judgements. Decision makers are forced to rely on intuition and anecdotal evidence.

       To increase the efficiency and the effectiveness of the management of CFTC programs
and operations, the OIG will, in addition to conducting mandatory audits, concentrate its audit
resources on the identification of information voids and the lack of continuity in the flow of
information across organizational lines from the beginning of a process until its conclusion. The
OIG will recommend the implementation of any system improvements where the benefits of
implementing the change exceed the costs.

        In addition to our efforts to bring technology to bear on the information requirements of
the Commission, the GIG has been following the Commission's development ofmeasures and
systems of measurement in response to the Government Performance and Results Act (GPRA).
As the Commission implements GPRA, the OIG will devote significant resources to monitoring
agency performance to insure that the data is accurately gathered and that the measures reported
are the best available for demonstrating program performance.

INVESTIGATIONS

       The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning



                                                 16
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, gross waste of funds, abuse of authority or a substantial and specific danger to
the public health and safety.

        The OIG has to date conducted only a reactive investigative program chiefly relying on
unsolicited employee complaints as the source of investigative leads. This reactive program has
resulted in only a handful of investigations per year. This strategy was followed because the
OIG believed that an independent regulatory agency such as the CFTC, without grant money or
substantial contracts to award, was not likely to generate a substantial investigative workload.

        To insure that employee complaints could easily reach the OIG, a 24-hour hotline was
established in February 1993 to receive complaints. The hotline's existence is publicized in the
agency-wide telephone book and in this semiannual report.

       Because of the reactive nature of the OIG's investigative program, no investigative
agenda has been established.

LEGISLATIVE AND REGULATORY REVIEW

        Because of the importance of this activity in an economic regulatory agency, the OIG
reviews proposed and final CFTC regulations, legislation, and selected exchange rules using six
basic criteria: Whether the agency: (1) has identified specifically the problem(s) to be addressed
by the proposal; (2) has defined through case study or data analysis a clear link between the
proposed solution and the identified problem(s); (3) has specified clearly the means to
effectively and efficiently enforce the proposal; (4) has assessed the likely efficiency and
effectiveness of alternative solutions; (5) can reasonably document that the proposal will yield
positive net benefits over the long term; and (6) has met the requirements of the Regulatory
Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

        Because the OIG does not initiate legislation or, generally, regulations, the OIG
legislative and regulatory review program is reactive to the legislative and regulatory proposals
developed by others. Accordingly, no independent legislative and regulatory review agenda has
been established.




                                                17
                                       AUDIT AGENDA

ANNUAL AUDITS

       The following audit is performed on an annual basis.

Audit of Compliance with the Federal Managers' Financial Integrity Act

       In support of OMB Circular A-123 (Revised), the Inspector General will evaluate,
provide technical assistance, and advise the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.

OTHER AUDITS

        The GIG intends to focus the balance of its audit resources on insuring that the Chairman,
the Commissioners, and program managers have timely, useful information on the progress of
the CFTC's programs in meeting their goals and objectives. For example, emphasis will be
placed on determining whether all managerial levels engaged in a process can track the progress
of their various programs. The tracking systems required in many, though not all, programs will
cross formal organizational lines.

        These audits will entail a cataloging and description of all of the manual and automated
systems used by a program to gather information on its use ofresources, the results of the
devotion of those resources (including definitions ofmeasurements of accomplishment), and the
reporting ofresults and associated costs to the upper level managers in the Division and to the
Chairman and the Commissioners. The cataloging of these decision support systems will be
followed by an assessment of whether all concerned officials are timely receiving the
information they require to efficiently allocate resources to those uses which best accomplish the
priorities of the Commission. If any elements are lacking in the information systems, they will
be identified and improvements will be recommended if they can be implemented in a
costlbeneficial manner.

        If recommendations are successfully implemented, the proposed systems should allow
the Chairman, the Commissioners, and concerned program managers to track the progress of a
particular program across organizational lines and to quickly determine the effects, if any, of
changes in policy, procedure, or staffing.

      The first step in accomplishing this goal will be to concentrate on documenting, and
recommending the improvement and/or development of tracking systems in every program
element throughout the Commission.

       In addition to our focus on facilitating the development of an efficient flow of
information throughout the agency, the GIG will devote resources to the audit of compliance
with the terms of agency contracts (such as leases of space in New York, Chicago, and
Washington, D.C.), the collection of funds (such as compliance with the terms of the Debt
Collection hnprovement Act of 1996 and the resultant Memorandum of Understanding with



                                                18
Treasury), and agency compliance with Congressional mandates (such as the Government
Performance and Results Act and the Government Information Security Reform Act).

RESOURCES REQUIRED
        The OIG estimates that approximately one staff year of effort will be devoted over each
of the next five years to the development of an efficient flow of information throughout the
agency. Nine-tenths of a staff year of effort will be devoted over each ofthe next five years to
the compliance audits described above. The "Annual Audits" are expected to consume
approximately one-tenth staff year per year.




                                               19
                      CONTACTING THE OFFICE OF THE
                          INSPECTOR GENERAL


        The OIG is located at 1155 21 st Street, N.W., Washington, D.C. 20581. The telephone
number is (202)418-5110. The facsimile number is (202)418-5522. The hotline number is
(202)418-5510. Regular business hours are between 8:30 AM and 5:00 PM, Monday through
Friday, except Federal holidays.




                                              20
                                              Table 1
                                 Reports Issued with Questioned Costs
                                 (April I, 2004 - September 30, 2004)


                                                                        Dollar Value
                                                                         Thousands
                                                     Number      Questioned Unsupported

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                   o               o        o
B.   Which were issued during the reporting
     period                                             o               o        o
     Subtotals (A + B)                                  o               o        o
c. For which a management decision was
     made during the reporting period                   o               o        o
     (I)      dollar value of
              disallowed costs                          o               o        o
     (ii)     dollar value of costs not
              disallowed                                o               o        o
D.   For which no management decision
     has been made by the end of the
     reporting period                                   o               o        o




                                              21
                                              Table 2
                             Reports Issued with Recommendations
                                That Funds be Put to Better Use
                              (Aprill, 2004 - September 30, 2004)


                                                             Dollar Value
                                                   Number     Thousands

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                o              o
B.   Which were issued during the reporting
     period                                          o              o
     Subtotals (A + B)                               o              o
c.   For which a management decision was
     made during the reporting period                o              o
     (i)     dollar value of
             recommendations that
             were agreed to by management
                                                     o              o
     (ii)     dollar value of
              recommendations that
              were not agreed to by
              management                             o              o
D.   For which no management decision
     has been made by the end of the
     reporting period                                o              o




                                              22
        The Inspector General
        needs your help to
        assure the integrity of
        CFTC's programs.



Report FRAUD, WASTE
or ABUSE to the
INSPECTOR GENERAL

HOTLINE
(202)418-5510
    Office of the Inspector General
 Commodity Futures Trading Commission
        1155 21ST Street, N.W.
        Washington, D.C. 20581
